No. 20 - ______

IN THE SUPREME COURT OF THE UNITED STATES
___________
MELVIN LANDRY, JR.—Petitioner
v.
UNITED STATES OF AMERICA—Respondent
PROOF OF SERVICE
I, ETHAN H. STONE, do swear or declare that on this date, February 13, 2021, as
required by Supreme Court Rule 29, I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS, PETITION FOR WRIT OF CERTIORARI, and
APPENDIX TO PETITION FOR WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery to
a third-party commercial carrier for delivery within 3 calendar days. The names and
addresses of those served are as follows:
Merry Jean Chan,
Assistant United States Attorney
450 Golden Gate Avenue, 11th Floor
San Francisco, CA 94102
(415) 436-6750
Attorney for Respondent

Melvin Landry, Jr.
Register No. 18511-111
USP Florence - High
United States Penitentiary
P.O. Box 7000
Florence, CO 81226
(719) 784-9454

Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 13, 2021 at Berkeley, California.
________________________
ETHAN H. STONE

